HHS/OIG, Audit -"State of California's Efforts to Account for the Use of Bioterrorism Hospital Preparedness Program Funds and Monitoring of Subrecipients,"(A-09-03-01020)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of California's Efforts to Account for the Use of Bioterrorism Hospital Preparedness Program Funds and Monitoring
of Subrecipients," (A-09-03-01020)
October 1, 2003
Complete
Text of Report is available in PDF format (575 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the California Department of Health Services
(State agency):  (i) properly recorded, summarized and reported bioterrorism preparedness transactions in accordance
with the terms and conditions of the cooperative agreement, (ii) established controls and procedures to monitor subrecipient
expenditures of Health Resources and Services Administration funds; and (iii) used Bioterrorism Hospital Preparedness Program
(Program) funds to supplant funds previously provided by other sources.  We determined that the State agency:  (i)
generally accounted for Program funds in accordance with the terms and conditions of the cooperative agreement and applicable
departmental regulations and guidelines and had segregated costs by phase, but had not segregated expenditures by priority
planning area, (ii) had not made any site visits to subrecipients but planned to begin audits approximately 6 to 12 months
after allocations are distributed to recipients; and (iii) had not used Program funding to supplant existing State or local
funds.  We recommended that that the State agency:  (i) segregate expenditures by priority planning area, benchmarks
and type of provider as planned; and (ii) implement the audit plan being developed for monitoring subrecipients and address
problem areas, if any are identified. The State agency concurred with the conclusions of the report.